                                      2 March 200 1
            I

TO:     'I      The File
        /I
            I

FROM':                         Investigative Scientist
            I

SUBJECT:        Case Closeout, 1-00080012
       1
   This case was opened on 30 March 1999 as a misconduct in science case $nd closed
   on 18 August 2000 and subse uently opened as an investigation. On 30 Mhch 1999,
   an NSF program director,-brought                       a copy of an unsidned letter
   sent to a CEO of a small business. The letter contained information about the
   poshible inappropriate use of previously submitted NSF proposals by an unidentified
   company. The unidentified company allegedly purchased proposals &om NSF
   reviewers and used these purchased proposals to develop its own proposals ,to submit
   to NSF and other agencies. Subsequently, we received several similar unsigned
   letters sent to other small businesses alleging the same inappropriate use of other
   scientists' proposals.                                                     I


        /

2. As :a result of our review, we found only one NSF award to a small business that
   contained some materials that were essentially identical to materials contained in an
   earlier declined NSF proposal submitted by another small business. We~foundno
   evidence of criminal activity related to the information we gathered. To pksue this,
   well would need to gather more information with the assistance of added law
   enforcement, such as surveillance, search warrants, etc. Given what we know, there
   is no definitive subject, either individual or company to reasonably pursue.
                                                                              !I
                                                                              ij

3. This investigation is closed.                                             11
       I1
